United States Department of Agriculture
Office of Inspector General




Analysis of Mississippi's Supplemental
Nutrition Assistance Program (SNAP)
Eligibility Data




                                          Audit Report 27002-0005-13
                                          January 2012
                         United States Department of Agriculture
                                Office of Inspector General
                                  Washington, D.C. 20250




DATE:          January 31, 2012

AUDIT
NUMBER:        27002-0005-13

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Acting Director
               Office of Internal Control
                Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General
                for Audit

SUBJECT:       Analysis of Mississippi’s Supplemental Nutrition Assistance Program (SNAP)
               Eligibility Data


This report presents the results of the subject review. Your written response to the official
draft is included at the end of this report. Excerpts of your January 12, 2012, response and
the Office of Inspector General’s position are incorporated into the applicable sections of the
report.

Based on your response, we have reached management decision on all of the report’s
recommendations. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer. Also, please note that
Departmental Regulation 1720-1 requires final action to be completed within 1 year of the
date of management decision to preclude being listed in the Department’s annual
Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Recommendation Summary ....................................................................................2
Background and Objectives ....................................................................................3
Background...............................................................................................................3
Objectives ..................................................................................................................4
Section 1: SNAP Eligibility Oversight Needs Strengthening ..............................5
   Finding 1: FNS Should Strengthen its Oversight of MDHS’ Eligibility
   Review ....................................................................................................................5
         Recommendation 1 ........................................................................................7
         Recommendation 2 ........................................................................................7
         Recommendation 3 ........................................................................................7
Scope and Methodology ...........................................................................................9
Abbreviations .........................................................................................................10
Exhibit A: Summary of Monetary Results ..........................................................11
Agency’s Response .................................................................................................13
Analysis of Mississippi’s Supplemental Nutrition Assistance
Program (SNAP) Eligibility Data - 27002-0005-13

Executive Summary

The Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP),
formerly known as the Food Stamp Program, provides monthly food assistance and nutrition for
the health and wellbeing of more than 40 million low-income individuals.1 The Office of
Inspector General (OIG) initiated this audit to analyze the Mississippi SNAP participant database
to identify anomalies that may result in ineligible participants receiving SNAP benefits.

Of the 575,674 average monthly recipients in Mississippi, as of March 2011, we found 1,009
(.2 percent) recipients who were deceased, were using deceased individuals’ Social Security
Numbers (SSNs), had invalid SSNs, were receiving benefits simultaneously from one of five
nearby States, or were listed in the Electronic Disqualified Recipient System (eDRS) as
previously disqualified from receiving SNAP benefits.2, 3

The Mississippi Department of Human Services (MDHS) is responsible for administering SNAP
and explained that these issues occurred because it did not have a process in place to obtain the
death dates for deceased individuals from the Social Security Administration (SSA).
Additionally, MDHS does not perform some edit checks that would help ensure that the entered
participant information is accurate to prevent errors such as invalid SSNs. Also, though MDHS
uses the Public Assistance Reporting Information System (PARIS) database to check for
duplicate enrollment across States, this system does not include all participants nationwide
because FNS does not require States to participate in PARIS or to check for interstate
participation.4 Furthermore, although MDHS enters disqualified recipient information into
eDRS, FNS does not require States to check an applicant’s status unless they have reason to
believe the applicant is subject to disqualification in another State.

In all, the 1,009 participants whose eligibility should have been researched cause us to question
approximately $123,643 in benefits per month, based on the average monthly amount a recipient
receives in Mississippi.5 With a 35 percent increase in participation since 2007, SNAP is a
rapidly growing program in Mississippi. If MDHS does not take measures to increase
preventative and fraud detection efforts, it risks making continued payments to individuals who
are not eligible for SNAP benefits.


1
  For Fiscal Year 2010.
2
  Nearby States included Alabama, Florida, Louisiana, Missouri, and Texas.
3
  The Electronic Disqualified Recipient system (eDRS) is an automated system developed by FNS that contains
records of disqualifications in every State. State agencies are responsible for updating the system and checking it to
determine the appropriate length of each disqualification.
4
  Public Assistance Reporting Information System (PARIS) is a computer matching process by which the Social
Security numbers of public assistance recipients are matched against various Federal databases and those of
participating States to prevent interstate participation in benefit programs among States.
5
  Potential improper payments are based upon the average amount a recipient receives in Mississippi each month
($122.54).

                                                                             AUDIT REPORT 27002-0005-13              1
Recommendation Summary
FNS should ensure that MDHS regularly performs checks to ensure it is obtaining information,
such as death dates, from SSA. FNS needs to ensure that MDHS regularly performs checks to
determine whether information in participant databases is accurate and complete. FNS also
needs to require MDHS to review the 1,009 individuals identified in this report and determine if
those participants have received improper payments. MDHS also needs to recover any improper
payments as appropriate.

Agency Response
FNS is actively engaged in a dialogue with regional office and with States regarding policies and
technical assistance tools which can strengthen integrity to an even greater extent. FNS has final
rules in process that will codify the requirement for the SSA death match and are expected to be
published by early 2012. FNS also issued a policy memo on November 15, 2011, reminding
States of the death and prisoner matching requirement.

According to the State, Mississippi has already completed a review on the 1,009 individuals
identified and has identified 991 cases incorrectly reported into the system. The State will follow
up on the remaining 18 individuals identified and estimates completion by September 30, 2012.

OIG Position

OIG concurs with FNS’ response that a policy be issued to codify the States’ requirement to use
SSA death match and prisoner match to identify participants improperly receiving SNAP
benefits. OIG concurs with Mississippi’s response concerning follow-up of the 1,009 individuals
identified in the report to determine if they received improper payments. We reached
management decision on the report’s three recommendations.




2    AUDIT REPORT 27002-0005-13
Background and Objectives
Background

FNS’ SNAP program, formerly known as the Food Stamp Program, provides monthly food
assistance and nutrition for the health and wellbeing of more than 40 million low-income
individuals. Mississippi had 575,674 individuals—approximately 20 percent of the State’s
population—enrolled in SNAP as of March 2011. Since 2007, the program has grown by 35
percent. While FNS pays the full cost of recipient benefits, both FNS and the States share the
program’s administrative costs.

For enrollment and eligibility procedures, SNAP regulations at the Federal level specify minimum
guidelines, such as maximum income requirements, to be enforced by the State agencies; however,
these regulations did not establish a standardized system of internal control at the State level. FNS’
policy is to allow State agencies the flexibility to establish control systems that meet the individual
needs of each State. For example, Federal regulations allow State agencies to determine whether or
not they will interview recipients face-to-face or on the telephone prior to granting benefits. In
Mississippi, participants are interviewed in-person unless doing so would cause undue hardship.6
Each State agency develops and maintains its own eligibility system—including software and
databases—which varies from State to State.

In Mississippi, applicants submit documents to prove citizenship, residency, income, and expenses.
To continue in the program, participants are required to verify their need for SNAP benefits
during an interim review every 6 to 12 months depending on the applicant’s status.7 Participants
in SNAP apply and are approved or denied by MDHS based on pre-established eligibility
requirements.

State agencies also have the primary responsibility for monitoring recipients’ compliance with
program requirements and for detecting and investigating cases of alleged intentional program
violations.8 Once applicants have submitted information, either during enrollment or the interim
review process, MDHS performs automated data checks to validate selected information submitted,
including SSNs. State agencies are required to establish a system to ensure that certain prisoners do
not receive benefits.9 State agencies must also check recipient data against national SSA databases,
which can be accessed using SSA's State Verification Exchange System (SVES), to ensure that



6
  Mississippi Division of Economic Assistance SNAP Policy Volume V, Chapter 8, Page 8003, Waiving the Office
Interview, dated October 1, 2011.
7
  Households certified for 12 months will be required to return interim reports by the 6th month of certification,
while households certified for 24 months will be required to return interim reports by the 12th month of certification.
8
  An intentional program violation is defined as any act violating the Food Stamp Act, the Food Stamp Program
regulations, or any State statute for the purpose of using, presenting, transferring, acquiring, receiving, possessing,
or trafficking SNAP benefits. The definition includes any act that constitutes making a false or misleading
statement or concealing or withholding facts.
9
  Public Law (PL) 105-33, Balanced Budget Act of 1997, Section 1003 (a) (1), dated August 5, 1997; and The Food
and Nutrition Act of 2008, as amended by PL 110-246, Section 11(r), dated October 1, 2008.

                                                                             AUDIT REPORT 27002-0005-13             3
deceased recipients do not receive benefits.10, 11 In addition, MDHS, like most other agencies that
administer SNAP, utilizes additional national and State database systems to verify income and
employment information provided by applicants.12

Objectives

OIG initiated this audit to analyze the Mississippi SNAP participant database to identify
anomalies that may indicate ineligible participants receiving SNAP benefits.




10
   Provided at no cost to State agencies, SVES matches against several national databases to check for death and
SSN verification for every submitted individual. SSA’s Death Master File can also be used to check SSNs
nationwide for deceased individuals.
11
   PL 105-379, An Act to Amend the Food Stamp Act of 1997, Section 1(a), dated November 12, 1998.
12
   MDHS checks against several databases to obtain the following information: income, assets, citizenship, child
support compensation, disability benefits, imprisonment, and other information.

4     AUDIT REPORT 27002-0005-13
Section 1: SNAP Eligibility Oversight Needs Strengthening

Finding 1: FNS Should Strengthen its Oversight of MDHS’ Eligibility Review
Of the 575,674 average monthly recipients in Mississippi as of March 2011, we found 1,009
(.2 percent) recipients who were deceased, were using deceased individuals’ SSNs, had invalid
SSNs, were receiving benefits simultaneously from one of five nearby States, or were listed in
eDRS as being disqualified from receiving SNAP benefits. This occurred because MDHS did
not have a process in place to obtain the death dates for deceased individuals from SSA, does not
perform some edit checks to ensure that participant information is accurate, and does not check
to ensure that individuals were not previously disqualified from receiving SNAP benefits. Also,
though MDHS uses the PARIS database to check for simultaneous enrollment across States, this
system does not include all participants nationwide because FNS does not require States to
participate in PARIS and does not require States to check for interstate participation.13
Furthermore, although MDHS enters disqualified recipient information into eDRS, FNS does not
require States to check an applicant’s status unless they have reason to believe the applicant is
subject to disqualification in another State. Not performing these checks increases the risk of
improper payments. In all, the 1,009 participants who should have been researched and possibly
removed from the program continued to receive approximately $123,643 in benefits each month.

To verify that benefits are not issued to individuals who are deceased, MDHS, like all agencies
who administer SNAP, is required to compare the information in its SNAP participant database
with national SSA death information. MDHS officials stated that this information should be
used to terminate the deceased participants from the program. When we used SSA’s Death
Master File to perform this check ourselves, we found that 322 current Mississippi SNAP
participants’ SSNs were listed in SSA’s Death Master File.14 MDHS reviewed the 322 cases and
found that 117 participants’ SSNs had been entered incorrectly into the participant database;
these SSNs belonged to deceased individuals. The remaining participants have been removed or
are in the process of being removed from the program. Of the 117 cases, we were able to test 95
deceased individuals to determine if benefits were used after the date of death, we found that 31
accounts were used after the date of death.15 MDHS officials stated this occurred because
MDHS’ process for obtaining death dates for deceased individuals from SSA was erroneously
turned off during a program change in November 2009 and was not recognized until recently.
MDHS will resume the process in December 2011.

We also found individuals using invalid SSNs. MDHS’ procedure is to verify that SSNs belong
to applicants when they initially apply for SNAP.16 However, we found that 44 participants had
invalid SSNs that did not match the format of the SSA scheme—as a result, one participant

13
   The Food and Nutrition Act of 2008, as amended by PL 110-246, Section 6(j), dated October 1, 2008.
14
   The SSA Death Master File is used by leading government, financial, investigative, credit reporting, medical, and
research organizations as well as other industries to verify individuals have died.
15
   We were only able to test deceased individuals who were one person households. Because multi-participant
households share the same card, these could not be tested because the other members of the household legitimately
use the card.
16
   Mississippi Division of Economic Assistance SNAP Policy Volume V, Chapter 8, Page 8256, Social Security
Numbers, dated October 1, 2010.

                                                                            AUDIT REPORT 27002-0005-13             5
received benefits for more than 5 years. This occurred because MDHS does not currently check
for input errors caused when personnel enter numbers into the system, or for SSNs following
invalid schemes, such as those starting with “773” or “999.”

MDHS also had multiple instances of duplicate interstate enrollment with the States of Alabama,
Florida, Louisiana, Missouri, and Texas. Each participant should only receive SNAP benefits
from the State where the participant resides. To safeguard against interstate enrollment and
potential fraud, Mississippi’s SNAP eligibility workers are trained to ask applicants during initial
interviews if they are receiving or have received benefits from another State. MDHS’ policy also
states that before taking adverse action, case workers are required to independently verify
participant information using the PARIS database—an optional, multi-State database that stores
social welfare program participant information. We compared SNAP enrollment between
Mississippi and 5 nearby States and found that 621 individuals enrolled in the Mississippi SNAP
program were simultaneously enrolled in one of the nearby States for 3 consecutive months. Of
these, 29 were enrolled in both States for 6 months or longer. In some cases, participation in
multiple States occurred because FNS does not have a nationwide database of all SNAP
participants for MDHS to check. While MDHS does utilize PARIS, not all State agencies put
their SNAP participant information in PARIS. As a result, PARIS’ information is incomplete.
With mandatory SNAP participation in PARIS, or a similar system, MDHS—as well as other
State agencies—would have access to a reliable, nationwide database, which they could then
utilize in their fraud detection efforts.

Additionally, we found 22 active participants who were listed in eDRS as being disqualified
from receiving SNAP benefits. FNS maintains eDRS, a national system that tracks SNAP
participants who have been disqualified from the program due to intentional program violations.
MDHS officials stated that the majority of these cases occurred because even though FNS
requires States to input individuals who have been disqualified, States are not required to check
the system before allowing a person in the program. We recommend that FNS require States to
verify that individuals have not been disqualified from SNAP prior to allowing them into the
program.

In all, the 1,009 participants whose eligibility should have been researched cause us to question
approximately $123,643 in benefits per month, based on the average benefit amount a recipient
receives in Mississippi. We forwarded these participants to MDHS for further research and
investigation. We acknowledge that the issues identified in Mississippi were mitigated by the
current use of sophisticated tools, such as their geospatial tool used in their fraud detection unit
that was not found in other states visited by OIG. By correcting the issue with the SSA death
date, using edit checks, and including a process to check eDRS at application for
disqualifications, MDHS can improve its fraud detection and prevention processes. In addition,
if FNS mandates that all States participate in PARIS or a similar database, individuals enrolling
in multiple States simultaneously could be detected.




6    AUDIT REPORT 27002-0005-13
Recommendation 1
Correct the error in the death match program and perform the death match as required by FNS.

Agency Response
FNS agrees with this recommendation. According to the Mississippi State agency, they are
currently developing a process that will ensure SSA data is collected and tracked in the eligibility
system, which will ensure all SSNs are valid and all death data is added in a new field on the
screen. Completion date is January 1, 2012.

OIG Position
OIG concurs with FNS’ response that Mississippi is developing a process to ensure SSA data is
collected and tracked in their eligibility system, which will ensure all SSNs are valid. We
reached management decision on the recommendation.

Recommendation 2
Ensure that MDHS regularly performs checks to determine whether information in participant
databases is accurate and complete.

Agency Response
FNS requires States to input individuals who have been disqualified from SNAP into the eDRS.
States are currently required to check eDRS if they suspect the client is in a disqualified status
and to determine the penalty length for a person who was found guilty of an intentional Program
violation. However, FNS has final rules in process which will require all applicants to be
checked against the eDRS system prior to certification. This final rule is expected to be
published by January 31, 2012.

OIG Position
OIG concurs with FNS’ response that a policy be issued to codify the States’ requirement to use
eDRS to identify disqualified participants improperly receiving SNAP benefits. We reached
management decision on the recommendation.

Recommendation 3
Require MDHS to review the 1,009 individuals identified in this report and determine if those
participants have received improper payments. Recover improper payments as appropriate.




                                                                 AUDIT REPORT 27002-0005-13       7
Agency Response
FNS agrees with this recommendation and estimates completion by September 30, 2012.

OIG Position
OIG concurs with Mississippi’s response concerning follow-up on the 1,009 individuals
identified in the report and will determine if they received improper payments. We reached
management decision on the recommendation.




8    AUDIT REPORT 27002-0005-13
Scope and Methodology
We analyzed the participants in the Mississippi SNAP program for the timeframe of September
2010 through March 2011. The State of Mississippi was selected for review because it had the
second largest percentage of residents relative to the population receiving SNAP benefits as of
August 2010. We selected the timeframe of September 2010 to March 2011 because, at the time
of our audit, it was the latest information available.
We obtained the SSA’s Death Master File and extracts of key SNAP participant data from
Mississippi State officials. We also obtained SNAP participant data from the five nearby States
of Alabama, Florida, Louisiana, Missouri, and Texas. We analyzed this data using Audit
Command Language. Our tests were developed to identify anomalies that may result in
ineligible participants receiving SNAP benefits and to determine whether FNS provided
adequate program guidance and oversight. Our tests determined whether

   ·   Active SNAP participants were using deceased individuals’ SSNs,
   ·   Invalid SSNs were used,
   ·   Recipients were receiving benefits simultaneously from nearby States, and
   ·   Active participants were previously disqualified from receiving SNAP benefits.

As appropriate, the anomalies identified were verified by Mississippi State officials.

We reviewed public laws and FNS regulations, policies, procedures, and other controls
governing SNAP administration to ensure MDHS complied with Federal guidelines. We
evaluated reports that resulted from reviews relating to SNAP, the Federal Manager’s Financial
Integrity Report for fiscal year 2011, and Government Accountability Office reports. We
interviewed Mississippi State officials and obtained supporting documentation.

We conducted our audit work with MDHS in Jackson, Mississippi, and FNS’ National Office in
Alexandria, Virginia. We also coordinated our audit with FNS’ Southeast regional office in
Atlanta, Georgia. Our audit period was December 2010 through January 2012.

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                                AUDIT REPORT 27002-0005-13       9
Abbreviations
eDRS ........................... Electronic Disqualified Recipient System
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
MDHS ......................... Mississippi Department of Human Services
OIG ............................. Office of Inspector General
PARIS ......................... Public Assistance Reporting Information System
PL................................ Public Law
SNAP .......................... Supplemental Nutrition Assistance Program
SSA ............................. Social Security Administration
SSN ............................. Social Security Number
SVES........................... State Verification Exchange System




10     AUDIT REPORT 27002-0005-13
Exhibit A: Summary of Monetary Results

FINDING      RECOMMENDATION
                                       DESCRIPTION          AMOUNT              CATEGORY
NUMBER           NUMBER

                                          322 Clients
                                       identified on the     $39,458         Questioned Cost,
    1                   3
                                         Death Master       per month     Recovery Recommended
                                              File

                                         621 Clients
                                       participating in
                                                             $76,097         Questioned Cost,
    1                   3               SNAP in both
                                                            per month     Recovery Recommended
                                       MS and AL, FL,
                                       LA, MO, or TX

                                       22 Clients listed
                                                             $2,696          Questioned Cost,
    1                   3             in MS and eDRS
                                                            per month     Recovery Recommended
                                           system


                                       44 Clients using      $5,392          Questioned Cost,
    1                   3
                                        invalid SSNs        per month     Recovery Recommended


 TOTAL                                                     $123,643 per month


The table above represents the $123,643 in questioned costs per month, recovery recommended.




                                                            AUDIT REPORT 27002-0005-13    11
12   AUDIT REPORT 27002-0005-13
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27002-0005-13   13
United States
Department of    DATE:          January 12, 2012
Agriculture
                 AUDIT
                 NUMBER:        27002-05-13
Food and
Nutrition
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712
                 FROM:          Audrey Rowe /S/
                                Administrator
Alexandria, VA
22302-1500
                                Food and Nutrition Service

                 SUBJECT:      Analysis of Mississippi’s Supplemental Nutrition Assistance Program
                               (SNAP) Eligibility Data

                 This letter responds to the official draft report for audit report number 27002-05-13,
                 Analysis of Mississippi’s Supplemental Nutrition Assistance Program (SNAP)
                 Eligibility Data. Specifically, the Food and Nutrition Service (FNS) is responding to
                 the three recommendations in the report.

                 OIG Recommendation 1:

                 Correct the error in the death match program and perform the death match as required
                 by FNS.

                 Food and Nutrition Response:

                 FNS agrees with this recommendation. According to the Mississippi State agency, they
                 are currently developing a process that will ensure Social Security Administration’s
                 (SSA) data is collected and tracked in the eligibility system, which will ensure all
                 Social Security Numbers (SSNs) are valid and all death data is added in a new field on
                 the screen.

                 Completion Date: January 1, 2012

                 OIG Recommendation 2:

                 Ensure that MDHS regularly performs checks to determine whether information in
                 participant databases is accurate and complete.

                 Food and Nutrition Service Response:

                 FNS takes program integrity very seriously. Any errors are of concern; however, FNS
                 notes that the errors found in this report constitute less than 0.2 percent of the
                                                                                     P age |2




Mississippi caseload suggesting that while current processes can always be improved,
they are, in fact, working. Pursuant to the critical importance of integrity to ensure that
people in need receive nutrition assistance to which they are entitled, FNS is actively
engaged in a dialogue with our regional offices and with States regarding policies and
technical assistance tools which can strengthen integrity to an even greater extent.

FNS already has a number of activities in place that will address the situations found in
this report. FNS has final rules in process that will codify the existing requirement that
States perform the SSA death match. This rule is expected to be published in early 2012.
FNS has also issued a policy memo reminding States of this requirement, which went out
to States on November 15, 2011. According to the Mississippi State agency’s comments
on the audit, they are currently developing a process that will ensure SSA data is
collected and tracked in the eligibility system, which will ensure all SSNs are valid and
all death data is added in a new field on the screen.

FNS is also currently in the process of awarding a grant through the Office of
Management and Budget (OMB) Partnership Fund for Program Integrity. This grant will
fund development of a pilot clearinghouse database with information from up to six
States in the Southeast and Southwest for detecting duplicate participation in SNAP and
disaster SNAP (D-SNAP) across State boundaries. FNS supports Mississippi’s
participation in this partnership fund project that will explore options for better interstate
duplicate participation monitoring. Additionally, audit States Alabama, Louisiana, and
Florida are also part of the coalition of States that will use grant funds from the OMB
Partnership Project to develop the interstate clearinghouse.

Per SNAP regulations at 7 CFR 272.4(e)(1), each State agency shall establish a system to
assure that no individual participates more than once in a month, in more than one
jurisdiction, or in more than one household within the State. FNS further encourages
States to have processes in place to check data with neighboring States to prevent
duplicate participation across State lines. The Public Assistance Reporting Information
System (PARIS) is available to States as an additional tool to identify interstate duplicate
participation but it is not mandatory for States to use PARIS. Some States have
expressed concerns that the information in PARIS is not timely.

FNS requires States to input individuals who have been disqualified from SNAP into the
Electronic Disqualified Recipient System (eDRS). States are currently required to check
eDRS if they suspect the client is in a disqualified status and to determine the penalty
length for a person who was found guilty of an intentional Program violation. However,
FNS has final rules in process which will require all applicants to be checked against the
eDRS system prior to certification. This final rule is expected to be published in early
2012.

Estimated Completion Date: January 31, 2012




                              AN EQUAL OPPORTUNITY EMPLOYER
                                                                                 P age |3




OIG Recommendation 3:

Require MDHS to review the 1,009 individuals identified in this report and determine if
those participants have received improper payments. Recover improper payments as
appropriate.

Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS applauds the State of Mississippi for their
quick response. According to the Mississippi Department of Human Services, they have
been very proactive in addressing all of the audit findings and establishing claims for all
cases where improper payments occurred. The State has completed reviews of all 1,009
individuals identified by the OIG and found 18 individuals who were over issued $19,419
in SNAP benefits. No other claims were necessary for the remaining 991 cases due to
simplified reporting rules and actions to correct SSNs that had been entered incorrectly
into the system.


Estimated Completion Date: September 30, 2012




                             AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
